                                     UNITED STATES OF AMERICA
                          FEDERAL LABOR RELATIONS AUTHORITY
                            OFFICE OF THE INSPECTOR GENERAL
                                       WASHINGTON, D.C. 20424-0001




SUBJECT: Internal Review of Strategic Management of Human Capital
Succession Planning

METHODOLOGY: This Federal Labor Relations Authority Inspector General Internal
Review of Strategic Management of Human Capital Succession Planning was conducted
in accordance with the Inspector General Reform Act of 2008, the Inspector General Act of
1978, as amended, and in compliance with the Council of the Inspector General on
Integrity and Efficiency and the Federal Labor Relations Authority Inspector General’s
updated (2009) related policies.

REGULATIONS:

  - GSA Succession Planning Guide
  - OPM ‘s Work Force

BACKGROUND:

The strategic management of human capital was included in the Government
Accountability Office’s (GAO) 2001 list of high risk areas because Federal agencies lacked
a strategic approach to human capital management that integrated it with agency missions
and program goals. The Office of Personnel Management (OPM), in collaboration with
GAO and Office of Management and Budget (OMB) revised Human capital standards to
meet the requirements of the President’s Management Agenda during the last
administration. Every Federal agency was required to plan goals and evaluate results in
five systems which included, Strategic Alignment, Leadership and Knowledge
Management, Results Oriented Performance Culture, Talent Management and
Accountability. Unfortunately, FLRA’s previous management micromanaged and did not
address these systems properly. During the previous administration, Human Capital
Succession Planning and Federal Labor Relations Authority Management positions were
significantly reduced. Under the current administration, the Chairman, FLRA has focused
on rehiring FLRA managers and providing management employees with training.

OPM defines leadership as a “system that ensures continuity of leadership by identifying
and addressing potential gaps in effective leadership and implements/maintains programs
that capture knowledge and promote learning. Fortunately, current FLRA management is
focused on these issues and is planning to ensure that all agency employees have
knowledge, skills and competencies in the occupations needed to meet their mission.
Human Capital Accountability is necessary for all Federal planning, setting of goals, and
implementation. Succession Planning falls under the leadership and knowledge
management system of Human Capital. The Office of Personnel Management (OPM) has
identified leadership and knowledge management as “a system that ensures continuity of
leadership by identifying and addressing potential gaps in effective leadership and
maintains programs that capture competencies knowledge and promote learning.”

Succession planning involves identifying leadership competencies and establishing
objectives and strategies to make sure there is a continuous amount of available
leadership within the organization. Succession Planning involves having senior executives
periodically review their top executives and those in the next lower level to determine
backups for each senior position. This is important because it often takes years to develop
a senior manager. All Federal agencies need to increase their efforts in workforce
planning, including succession planning, to address the current workforce and ensure that
agencies have the knowledge, skills and competencies in the occupations needed to meet
their missions. Succession Planning must clearly set out the factors to be taken into
account and the process to be followed in retaining or replacing the person. Success
requires choices between two or more qualified individuals. To have such a choice,
management needs to identify who is ready and what it will take to make other employees
ready when you need them.

The Office of Personnel Management (OPM) has developed a Workforce Planning Model
which Federal agencies may find useful in developing succession planning.

FACTS:

The Current Chairman, FLRA has focused on the need for senior level management to
place a greater emphasis on human capital management and make sure that the FLRA
has the proper positions, right grades, and right skills. The FLRA’s Human Resource
Office and Office of Policy & Performance Management receive top management’s
support.

Currently, the FLRA has 21 managers. Approximately 12 managers are eligible for
retirement. The FLRA will be hiring two more Chief Counsels and a Deputy General
Counsel. The amount of managers needed in 2010 have not yet been designated.

The FLRA has approximately 14 GS-15 employees who could qualify for SES vacancies.
This group of FLRA employees is sizeable who, without minimal training, would qualify for
selection for upcoming FLRA SES vacancies. FLRA leadership development should focus
on GS-13s and GS 14s over the next few years to support their possible upgrades.

The FLRA has not yet identified critical skills and competencies which are needed to
achieve current and future programmatic goals but will identify them when the FLRA
undertakes succession planning.


                                            2
FLRA is currently focused on updating its strategic plan which will focus on Human Capital
requirements, factors for successful succession planning and develop strategies to address
mission critical and other key positions in the FLRA.

Human Capital initiatives, including strategic planning and training, have been integrated
into the 2009 and 2010 budgets.

FLRA’s Human Capital instructions (Management Control System, Performance
Management System Plan, SES Performance Management Plan, Senior Executive
Service, Employee Discipline & Adverse Actions,) are more than 10 years old and definitely
need to be updated to address Strategic Management of Human Capital and Strategic
Planning. The FLRA’s Strategic Plan is currently being updated and should be issued in
2010.

The FLRA Human Resource Office is now working with management to ensure that
necessary management and employee vacancies are promptly posted and positions filled
so that the FLRA’s mission critical work is not adversely affected.

FLRA Management has identified several training opportunities for FLRA leadership that
apply to all levels of supervisors, and managers and stated will also address the issue of
leadership training in strategic planning. Opportunities for leadership classes and details for
leadership positions are properly advertised by Human Resources. Currently, planned
training for new and active supervisors with less than 2 years of supervisory experience
has not been planned.

FLRA Human Resources Office ensures that Equal Employment Opportunity rules
concerning diversity are addressed and that all vacancy announcements follow merit
promotion rules.

After the FLRA develops its succession management plan and it is implemented, it should
be communicated to FLRA employees and posted on the FLRA’s website. Communication
is a vital part of succession planning’s implementation process.

The FLRA now provides formal training for all levels of supervisors and managers as well
as strategies for addressing human capital challenges. The FLRA now conducts monthly
management meetings as well as meetings with employees and interacts with the FLRA
Union.

FLRA Succession Planning should assess the current situation to plan a workforce for the
future. The plan should address the succession of current workers as they leave the FLRA
due to retirement, attrition or other factors.

Currently several mission critical positions that need to be filled such as the Deputy
General Counsel which is currently being advertised and new Member’s Chief Counsel
position which is also posted have been focused on by management. Also, the FLRA is

                                              3
hiring several attorneys at various grade levels. The FLRA is also hiring additional
employees for other mission critical positions which were diminished in the previous
administration.

Strategies for human capital challenges such as diversity, leadership, capacity and
retention are now being addressed by FLRA management. FLRA management is focused
on developing strategies to address gaps in mission related and administrative positions.
Management is focused on making sure that the FLRA has the right positions at the right
grade with the right skills. Although the FLRA budget (diminished during the last
administration) is still small, it will go up a bit in 2010 and then more in 2011 to help the
FLRA address its human capital (as well as other) issues.

Although Human Resources have a Director, the Director of Policy and Procedures
provided the FLRA Inspector General with most of the information. The Director of Human
Resources stated she was too new to the FLRA to answer most of the Inspector General
questions.

CONCLUSIONS:

Although the FLRA Strategic Plan and Strategic Management of Human Capital
Succession Planning have not yet been implemented, current FLRA senior management is
focusing on creating and implementing these essential programs.

Current FLRA senior management has, is still rebuilding the FLRA, is hiring employees,
training leadership and focusing on Human Resource requirements. The FLRA has
increased the 2009 and 2010 Human Resource budget to hire as well as train necessary
FLRA employees. The FLRA needs to develop a workforce plan that describes the
methods that need to be taken to identify potential leadership needs and qualified
candidates for future FLRA leadership positions. Identifying necessary resources will
ensure that human capital initiatives will be carried out and remain a future priority.

There is not just one right way for organizations to manage succession planning for its
leaders and other key employees. In order to adopt the best succession plan, FLRA senior
management and leaders must get together and discuss succession planning to prepare
the right workforce with skills, knowledge and abilities that the FLRA needs to conduct its
mission effectively.

Human capital initiatives including succession planning should be integrated into the
FLRA’s agency wide budget process to ensure that human capital initiatives will be
accomplished as planned and remain a future priority for the FLRA.

During the monthly senior management meetings, management should continue to
address human capital issues and succession planning for the entire organization for



                                             4
current and future workforce skills, knowledge and abilities that the FLRA needs to address
its mission. Steps need to be created for top link succession planning efforts with the
FLRA’s strategic plan and budget process.

FINDINGS AND RECOMMENDATIONS:

FINDING 1:

The FLRA has not implemented succession planning to achieve current and future
programmatic goals.

RECOMMENDATION 1:

The FLRA should develop and implement succession planning and design an Executive
and Senior leadership program to identify critical skills and competencies which are
needed to achieve current and future programmatic goals. Succession planning should
also be included in FLRA’s future budget information.

FINDING 2:

Currently, training for new and active supervisors with less than 2 years of supervisory
experience has not been planned.

RECOMMENDATION 2:

FLRA Human Resources must plan and provide necessary training for new supervisors
and active supervisors with less then 2 years of supervisory experience to address
diversity, leadership, capacity and retention.

FINDING 3:

Most of FLRA’s current Human Resource Instructions are over 10 yrs old and need to be
updated to focus on Human Capital.


RECOMMENDATION 3:

FLRA’s Office of Policy and Procedures needs to update all Human Capital policy and
procedures to address the current administration. This includes the Senior Leadership
Development Plan.

FINDING 4:

14 of FLRA’s 21 current senior management (SES and senior GS positions) are already at
retirement ages.
                                            5
RECOMMENDATION 4:

In order to hire proper and experienced FLRA senior managers immediately so that the
FLRA mission is not gaped down again. FLRA Senior Management and top management
leadership should hold periodic meetings to discuss succession planning and human
capital issues for the FLRA. Identifying skill levels, past job experience and current training
could help Agency leaders to decide on future assignments and filling senior level
vacancies within the Agency.


Date Issued: August 21, 2009




                                              6
